PROOF OF SERVICE
I, Shannon Riley, do swear or declare that on this
date, March 15, 2021, pursuant to Supreme Court Rule.
29, I have served the enclosed Petition for Rehearing on
each party to the above proceeding or that party's
counsel, and on every other person required to be served,
by depositing an envelope containing the above documents
in the United States Mail properly addressed to each of
them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery with
3 calendar days.
THE NAMES AND ADDRESSES OF THOSE SERVED ARE AS FOLLOWS:
The Honorable Clifton Newman, Circuit Court Judge, Aiken
County Court of Common Pleas, POB 583, Aiken, SC 29802,
Dionne Carroll, Esq. Cattail Law FirM, 107 Pendleton St
N.W. Aiken, SC 29801
I declare under penalty of perjury that the foregoing is'
true and correct.
Executed on March 15, 2021

Shannon Riley .
Petitioner pro se
1368 Smiths Lawn
Aiken, SC 29801
(815)''814-5179
shannon@infinitysporthorse.com

